   May 24, 2006




   Department of Defense Inspector
 General’s Report on the 2005 Defense
     Base Closure and Realignment
 Commission’s Report Recommendation
#193 Regarding Naval Air Station Oceana,
                Virginia

                  D-2006-091




            Department of Defense
           Office of Inspector General
Quality             Integrity        Accountability
                                INSPECTOR GENERAL
                               DEPARTMENT OF DEFENSE
                                400 ARMY NAVY DRIVE
                           ARLINGTON, VIRGINIA 22202-4704




                                                                    MAY 2 4 2006

The Honorable George W. Bush
President of the United States
1600 Pennsylvania Avenue, W
Washington, D.C. 20500


Dear Mr. Resident:

       The Base Closure and Realignment Commission (the Commission) issued a
report of findings and recommendations to you on September 8,2005, which you
approved on ~ e i t e m b e r15,2005. Congress allowed the report to pass into law on
November 9,2005. The Commission's actions were taken under the authority of
Public Law 101-5 1 0, "'Defense Base Closure and Realignment Act of 1990."

       This letter is provided in response to the Commission's conclusions and
recommendations related to Naval Air Station WAS) Oceana, Virginia, in the
Commission's Report Recommendation # 193, which contained six criteria. The
Commonwealth of Virginia (Commonwealth) and the municipal governments of
Virginia Beach and Chesapeake, Virginia, (municipal governments) satisfied five
of the six criteria prescribed by the Commission for certification, The
Commonwealth and the municipal governments have implemented a number of
commendable actions to include the Commonwealth's enacting legislation and
both municipal governments' adopting a series of ordinances to address the
Conmission's Report Recommendation #193.

        The actions taken, however, did not satisfy the criterion to "enact state and
Iocal legidation and ordnances [sic]to establish a program to condemn and
purchase all the incompatible use property located within the Accident Poten tiaI
Zone I areas for Naval Air Station Oceana, as depicted in the 1999 AICUZ
pamphlet published by the US [sic]Navy and to fund and expend no less than
$1 5 million annually in furtherance of the aforementioned program." Therefore, I
am not able to certify full compliance with the RRAC criteria.

        Recommendation #I93 required the Department of Defense Inspector
General to certify in writing to you and oversight commjttees of Congress by
June 1 , 2006, as to whether the Commonwealth and the municipal governments
                                                                                                       2


had taken specified actions, by the end of March 2006, related to encroachment
around NAS Oceana, Virginia. The Commission’s Report Recommendation #193,
states
           Realign Naval Air Station Oceana, Virginia by relocating the East Coast Master
           Jet Base to Cecil Field, FL, if the Commonwealth of Virginia and the municipal
           governments of Virginia Beach, VA, and Chesapeake, Virginia, fail to enact and
           enforce legislation to prevent further encroachment of Naval Air Station Oceana
           by the end of March 2006, to wit:

           [1] 1 enact state-mandated zoning controls requiring the cities of Virginia Beach
                 and Chesapeake to adopt zoning ordinances that require the governing body
                 to follow Air Installations Compatible Use Zone (AICUZ) guidelines in
                 deciding discretionary development applications for property in noise levels
                 70 dB Day-Night, average noise Level (DNL) or greater;
           [2] enact state and local legislation and ordnances [sic] to establish a program
                 to condemn and purchase all the incompatible use property located within
                 the Accident Potential Zone 1 areas for Naval Air Station Oceana, as
                 depicted in the 1999 AICUZ pamphlet published by the US [sic] Navy and
                 to fund and expend no less than $15 million annually in furtherance of the
                 aforementioned program;
           [3] codify the 2005 final Hampton Roads Joint Land Use Study
                 recommendations;
           [4] legislate requirements for the cities of Virginia Beach and Chesapeake to
                 evaluate undeveloped properties in noise zones 70 dB DNL or greater for
                 rezoning classification that would not allow uses incompatible under
                 AICUZ guidelines;
           [5] establish programs for purchase of development rights of the inter-facility
                 traffic area between NAS Oceana and NALF [Naval Auxiliary Landing
                 Field] Fentress;
           [6] enact legislation creating the Oceana-Fentress Advisory Council.

     The full text of the Commission’s NAS Oceana Findings and
Recommendation #193 is included at Enclosure 1.

        The Commission concluded that significant residential and commercial
encroachment had continued around NAS Oceana and NALF Fentress for many
years. The Report stated that the intent of the Commission was to ensure that the
Commonwealth and the municipal governments took immediate and positive steps
to halt pending encroachment and to roll back prior encroachment.

       A summary of the Commonwealth and municipal governments’ actions that
serve as the basis for my analysis and my conclusions is provided at Enclosure 2.
A map of NAS Oceana and NALF Fentress is included at Enclosure 3.

      My office conducted the required analysis in accordance with Generally
Accepted Government Auditing Standards. I provided criteria to the
1
    For purposes of the evaluation, BRAC Recommendation #193 is numbered and divided into 6 separate
    criteria.
Commonwealth and the municipal governments on November 2 1,2005, which
mirrored Recommendation #193. On March 3 1,2006, the Commonwealth and the
municipal govmments provided my office a "CompIiance Demonstration
~ e ~ o r t , in
              " ' response to Recommendation # 193. My responsibility was to certify
whether the actions complied with Recommendation #193, and not to determine
whether the East Coast Master Jet Base should or should not remain in the
Commonwealth, nor to determine the viability of alternatives to the Comission's
recommendation.

       We are also providing copies of the report to the following oversight
committees of Congress: Senate Committee on Armed Services, Senate
Appropriations Subcommittee on Defense, Senate Appropriations Subcommitkee
on Military Constmction and Veterans Affairs and Related Agencies, House
Committee on Armed Sewices, House Appropriations Subcommittee on Defense,
and House Appropriations Subcommittee on Military Quality of Life and Veterans
Affairs and Related Agencies.

       If there are any questions regarding this matter, please contact me at
(703) 604-8300, or Mr. John R. Crane, Assistant Inspector General for
Communications and Congressional Liaison, at (703) 604-83 24.


                                                  Respectful1y yours,

                                                 a+?-
                                                  Thomas F. Girnble
                                                  Principal Deputy


Enclosures:
As stated




 Actual title i s the "Compliance Demonstration Report Pursuant to Recommendation C193 of the 2005
 Defense Base CIosure and Realignment Commission Regarding Naval Air Station Oceana and Naval
 Auxiliary Landing Field Fentress, submitted by Commonwealth of Virginia, City of V-a       Beach, and
 C~tyof Chesapeake, March 3 1,2006" (referred ta as the V ~ r g m ~Compliance
                                                                    a         Demonstration Report).
Enclosure 1
2005 Defense Base Closure and Realignment
Commission Report Recommendation #193




Source: 2005 Defense Base Closure and Realignment Commission Report, September 8, 2005
                                                                                         Encl (1)
                                                                                         p. 1 of 3
Encl (1)
p. 2 of 3
Encl (1)
p. 3 of 3
Enclosure 2
2005 Defense Base Closure and Realignment
Commission Report Criteria and Description of
Findings and Results
Background
Naval Air Facilities. Naval Air Station (NAS) Oceana was originally established
as an Auxiliary Airfield in 1940, became a Naval Auxiliary Air Station in 1943,
and then was designated as a Master Jet Base in 1957. NAS Oceana is located in
the eastern portion of the City of Virginia Beach, Virginia. NAS Oceana is one of
the Navy’s largest air stations and home for F/A-18 C/D Hornet and F-14 Tomcat
aircraft squadrons, including F/A-18 C/D squadrons transferred in 1999 from
Cecil Field, Florida, following 1993 Base Closure and Realignment Commission
(BRAC) recommendations. In 2004, NAS Oceana began stationing F/A-18 E/F
Super Hornets to replace the planned retirement of the F-14 and the older model
F/A-18 C.

Naval Auxiliary Landing Field (NALF) Fentress was designated an auxiliary field
to NAS Oceana in 1951. NALF Fentress is located in the northeast quadrant of
the City of Chesapeake, Virginia, and 7 miles south of NAS Oceana. NALF
Fentress serves as a major carrier landing training facility for aircraft stationed at
NAS Oceana. (See Enclosure 3 for a map of NAS Oceana and NALF Fentress).

Air Installation Compatible Use Zones. “Air Installations Compatible Use
Zones (AICUZ),” Title 32, Code of Federal Regulations (C.F.R.) Part 256,
provides guidelines for achieving compatible use of property in the vicinity of
military airfields. Part 256 reflects desirable restrictions on land use to ensure its
compatibility with the characteristics, including noise, of air installation
operations. The DoD AICUZ Program defines the Accident Potential Zones
(APZs) and noise zones that represent areas where land use controls are needed to
protect the health, safety, and welfare of those living near the military airport and
to preserve the military defense mission. The restrictions were provided for safety
of flight and to ensure that people and facilities are not concentrated in areas
susceptible to aircraft accidents. The U.S. Department of the Navy issued a 1999
AICUZ pamphlet that included a map of the NAS Oceana and NALF Fentress
areas, highlighting noise and land use considerations.

Accident Potential Zone I. Accident Potential Zone I (APZ-1) is an area beyond
the clear zone which still possesses a measurable potential for accidents relative to




                                                                          Encl (2)
                                                                          p. 1 of 13
the clear zone. 3 APZ-1 is identified for areas that experience 5,000 or more fixed
wing flight tracks annually. APZ-1 extends 8,000 feet beyond the runway with a
width of 3,000 feet and may curve to conform to the predominant flight tracks.
(Enclosure 3 identifies the APZ-1 areas for NAS Oceana and NALF Fentress).

Joint Land Use Study. In 2004 the cities of Chesapeake, Norfolk, and Virginia
Beach, Virginia, partnered with the U.S. Navy to conduct the Hampton Roads
Joint Land Use Study (JLUS). Completed in April 2005, the Hampton Roads
JLUS explored opportunities to address land use decisions and to reduce noise
effects on communities surrounding NAS Oceana, NALF Fentress, and other
regional Navy bases while also accommodating necessary growth and maintaining
regional economic sustainability. Recommendations from this study focused on
specific policies to address land use, noise, and economic concerns of the
surrounding communities. The goal of these policies was to create a uniform
planning policy environment around the installations to help prevent future growth
that would be incompatible with continuing military operations.

Findings and Results
The following is a summary of the 2005 Defense BRAC Report criteria as defined
in Recommendation #193 of the Report; actions taken by the Commonwealth of
Virginia (Commonwealth) and the municipal governments of Virginia Beach and
Chesapeake, Virginia, (municipal governments) as identified in the Virginia
Compliance Demonstration Report; and a determination whether the actions
satisfied the BRAC criteria. 4 Using Generally Accepted Government Auditing
Standards, we reviewed the actions taken by the Commonwealth and the
municipal governments, including the Virginia Compliance Demonstration
Report, as the basis for our conclusions.

BRAC Criterion (1) The BRAC criterion language is as follows:
           …enact state-mandated zoning controls requiring the cities of Virginia Beach
           and Chesapeake to adopt zoning ordinances that require the governing body to
           follow Air Installation Compatibility Use Zone (AICUZ) guidelines in deciding
           discretionary development applications for property in noise levels 70 dB Day-
           Night, average noise Level (DNL) 5 or greater.


3
    The Clear Zone is the area immediately beyond a runway with the greatest potential for aircraft accidents
    and thus should remain undeveloped.
4
    For purposes of evaluation, BRAC Recommendation #193 is numbered and divided into 6 separate
    criteria.
5
    The DoD AICUZ program DNL noise metric averages aircraft noise events that occur over a 24-hour
    period, with increased weight given to nighttime aircraft operations. Decibel (dB) units reflect the
    relative intensity of sounds on a scale of zero for the average least perceptible sound to about 130 for the
    average sound induced pain level.

                                                                                                 Encl (2)
                                                                                                 p. 2 of 13
Description of Findings and Results for BRAC Criterion (1)

The Commonwealth of Virginia action satisfied BRAC criterion (1).

On March 30, 2006, the Commonwealth enacted legislation, specifically House
Bill (H.B.) 975 and Senate Bill (S.B.) 565 6 7 directing
           …the governing body of any locality in which a United States Navy Master Jet
           Base, or an auxiliary landing field used in connection with flight operations
           arising from such Master Jet Base, is located shall adopt zoning ordinances that
           require the governing body to follow Navy Air Installation Compatible Use
           Zone (AICUZ) guidelines in deciding discretionary applications for property in
           noise levels 70 dB DNL or greater.

BRAC Criterion (2) The BRAC criterion language is as follows:
           …enact state and local legislation and ordnances [sic] to establish a program to
           condemn and purchase all the incompatible use property located within the
           Accident Potential Zone 1 areas for Naval Air Station Oceana, as depicted in the
           1999 AICUZ pamphlet published by the US [sic] Navy and to fund and expend
           no less than $15 million annually in furtherance of the aforementioned program.

Description of Findings and Results for BRAC Criterion (2)

The Commonwealth of Virginia and the City of Virginia Beach took significant
actions to address the criterion; however, the actions did not satisfy BRAC
criterion (2).

Commonwealth of Virginia Actions. The Commonwealth enacted H.B. 975 and
S.B. 565, that stated in part
           For the purpose of preventing further encroachment, the governing body of any
           locality in which a United States Navy Master Jet Base is located shall adopt
           ordinances to establish a program to purchase or condemn pursuant to § 2,
           incompatible use property or otherwise seek to convert such property to an
           appropriate compatible use and to prohibit new uses or development deemed
           incompatible with air operations in the Accident Potential Zone 1 (APZ-1) and
           Clear Zone areas.

The legislation did not satisfy the BRAC criterion because the legislation allowed
for the purchase “or” condemnation of property, the program was dependent on
voluntary actions by property owners, and condemnation did not apply to all the
incompatible use properties as defined in the 1999 AICUZ pamphlet.

6
    Commonwealth of Virginia House Bill 975, 2006 Reg. Sess. 1, Va. Code Ann. § 2.2-2666.3 (referred to
    as H.B. 975) and Senate Bill 565, 2006 Reg. Sess. 1, Va. Code Ann. § 2.2-2666.3 (referred to as S.B.
    565).
7
    H.B. 975 and S.B. 565 have exactly the same language.

                                                                                              Encl (2)
                                                                                              p. 3 of 13
        Use of Purchase or Condemn. The use of the words “purchase or
condemn” in H.B. 975 and S.B. 565 did not meet the BRAC criterion. The words
“condemn and purchase” in the BRAC criterion make both actions mandatory,
whereas, under H.B. 975 and S.B. 565, localities have the option of taking either
action. Thus, the Commonwealth’s program does not include all required
elements of the BRAC criterion because by using purchase “or” condemn the
Commonwealth established parameters that do not comply with the BRAC
criterion.

      Condemnation Dependent on Voluntary Actions by Property Owners.
H.B. 975 and S.B. 565, state, in part
           For the purposes of preventing further encroachment, all localities in which a
           United States Navy Master Jet Base is located are hereby granted the power to
           exercise the limited right of eminent domain in acquisition of any lands,
           easements, and privileges for the purpose of protecting public safety by
           providing unobstructed airspace for the landing and takeoff of aircraft utilizing
           such Master Jet Base and preventing incompatible development within APZ-1
           and Clear Zone areas surrounding such Master Jet Base. The power to exercise
           the limited right of eminent domain may only be exercised where 1. The
           property is located wholly or partially within an APZ-1 or Clear Zone area as
           described in the United States Navy’s 1999 AICUZ Pamphlet; 2. The property is
           zoned for residential use, but is undeveloped, and use restrictions imposed by
           the locality to protect the APZ-1 or Clear Zone areas have left the property
           without a reasonable use; 3. The locality has made a bona fide offer to purchase
           the property from the owner and the owner and the locality have not been able to
           agree on the terms thereof; and 4. The owner of the property has made a written
           request to the locality that the property be acquired by the locality by eminent
           domain.

A condemnation proceeding is commonly understood to be an action brought by a
condemnor in the exercise of its power of eminent domain. 8 An action instituted
by the land owner would not constitute condemnation. 9 H.B. 975 and S.B. 565
provide for the property owner to request that the property be acquired by the
locality by eminent domain. However, the legislation has no provision for
condemnation should property owners not present a request.

       Applicability to All the Incompatible Use Property. H.B. 975 and
S.B. 565, stated that a governing body of any locality with a United States Navy
Master Jet Base, shall adopt ordinances to establish a program to prohibit
development deemed incompatible with air operations in the APZ-1 areas, as
8
    Va. Code Ann.§ 25.1-100 provides that “petitioner” or “condemnor” means any person that possesses the
    power to exercise the right of eminent domain and that seeks to exercise such power under this chapter.
    The term “petitioner” or “condemnor” includes any person required to make an effort to purchase
    property as provided in § 25.1-204.
9
    Under Va. Code Ann § 25.1-204, condemnation proceedings are not even instituted until after the
    condemnor has made a bona fide but ineffectual effort to purchase from the owner the property sought to
    be condemned.

                                                                                               Encl (2)
                                                                                               p. 4 of 13
depicted in the 1999 AICUZ pamphlet. The following table depicts the “Land Use
Compatibility with APZs,” included in the 1999 AICUZ pamphlet. The table
identifies the various land uses and those that are considered incompatible within
APZ-1. Land uses considered incompatible are identified in red under “APZ-1”
and include single-family residential, all other residential, assembly areas,
hospitals, sanitariums, and nursing homes.

                     LAND USE COMPATIBILITY WITH APZs
                                                                   Clear
                        Land Use                                         APZ 1 APZ 2
                                                                   Zone
Single-Family Residential (less than one dwelling per
                                                                   RED    RED  BLUE
acre)
All other Residential                                              RED    RED   RED
Public Rights-of-way                                               BLUE GREEN GREEN
Assembly Areas-Schools, Churches, Libraries,
Auditoriums, Sports Arenas, Preschools, Nurseries, and             RED    RED   RED
Restaurants
Hospitals, Sanitariums, and Nursing Homes                          RED    RED   RED
Office, Retail                                                     RED   BLUE  BLUE
Wholesale Stores/Manufacturing/Industrial                          RED   BLUE GREEN
Outdoor Uses-Playgrounds, Neighborhood Parks, Golf
                                                                   RED   BLUE GREEN
Courses, Riding Stables
Red = incompatible, Blue = conditionally compatible, Green = compatible
Source: 1999 AICUZ Pamphlet (Table 2) Land Use Compatibility with APZs

The BRAC criterion was very clear in requiring the establishment of a program to
condemn and purchase all the incompatible use property as depicted in the
1999 AICUZ pamphlet. H.B. 975 and S.B. 565, however, permitted application of
condemnation only for undeveloped residentially zoned property, as follows:
       The power to exercise the limited right of eminent domain may only be
       exercised where: …2. The property is zoned for residential use, but is
       undeveloped, and use restrictions imposed by the locality to protect the APZ-1
       or Clear Zone areas have left the property without a reasonable use…

As such, because H.B. 975 and S.B. 565 did not address all of the categories
identified in the 1999 AICUZ pamphlet, to include “single-family residential” and
“all other residential” properties, H.B. 975 and S.B. 565 did not meet the BRAC
criterion to address all the incompatible use property. The Commonwealth actions
therefore did not satisfy the BRAC criterion.




                                                                                        Encl (2)
                                                                                        p. 5 of 13
City of Virginia Beach Actions. According to the Virginia Compliance
Demonstration Report, the City of Virginia Beach adopted a series of ordinances
and implementation plans to establish an “APZ-1 Program” to address the BRAC
criteria. According to the Virginia Compliance Demonstration Report, the APZ-1
Program consisted of 3 principal components to accomplish the following:

       • Ordinance No. 2907, “APZ-1 Ordinance,” December 20, 2005, to
         immediately halt all new incompatible development in APZ-1.

       • Ordinance No. 2914K, “APZ-1/Clear Zone Use and Acquisition Plan,”
         December 20, 2005, 10 to target the acquisition of certain properties that
         were adversely affected by zoning changes under the APZ-1 Ordinance.

       • Ordinance Nos. 2934C and 2934D, “Oceana Land Use Conformity
         Program,” March 28, 2006, that combines a variety of tools including
         property acquisition, tax incentives, zoning incentives, and financial
         assistance to encourage the conversion of pre-existing non-conforming11
         uses property in APZ-1 to conforming uses.

The City of Virginia Beach established a limited acquisition program to acquire
property located in both APZ-1 and the Clear Zone.12 However, the program did
not satisfy the BRAC criterion. Specifically, the program did not address all the
incompatible use property located in APZ-1, as depicted in the 1999 AICUZ
pamphlet. In addition, the program relied on voluntary actions by owners and
limited the use of condemnation to undeveloped residentially zoned property.

       APZ-1 Property. According to the Virginia Compliance Demonstration
Report, the APZ-1 area includes approximately 1,575 acres of privately owned
property with a total estimated current appraised value of $655 million. Of the
1,575 acres, approximately 360 acres are undeveloped (60 are zoned residential),
385 acres are developed with conforming uses, and 830 acres are currently
developed with non-conforming uses of which about 550 acres are developed for
residential use totaling approximately 3,400 dwelling units with an estimated
value of $422.7 million. 13


10
      Virginia Beach revised Ordinance No. 2914K under Ordinance No. 2923D on February 14, 2006, to
     include the Clear Zones in addition to APZ-1.
11
      Virginia used the word “non-conforming,” a Virginia Beach zoning term, rather than the word
     incompatible that is used in the 1999 AICUZ pamphlet and the BRAC criterion.
12
      Virginia Beach expanded the ordinance to include the Clear Zone though not required by the BRAC
     criterion.
13
     We did not validate the Commonwealth data.

                                                                                            Encl (2)
                                                                                            p. 6 of 13
      Consideration of All the Incompatible Use Property. The APZ-1
Ordinance provided that
            …no use or structure shall be permitted on any property located within APZ-1
            unless such use is designated as compatible in APZ-1 in Table 2 (Air
            Installations Compatible Use Zones Land Use Compatibility in Accident
            Potential Zones) of Section 1804; provided, however, that any use or structure
            not designated as compatible shall be permitted as a replacement of the same use
            or structure if the replacement use or structure is of equal or lesser density or
            intensity than the original use or structure.

The APZ-1 Ordinance exempted existing uses and structures, thus allowing
existing property considered incompatible under the 1999 AICUZ pamphlet to
remain in place. In addition, the APZ-1 Ordinance allowed for the modification,
expansion, or rebuilding of existing structures or uses as long as the use or
structure is of equal or lesser density or intensity than permitted under the original
zoning. At the time the APZ-1 Ordinance was adopted, there was potential for
new “by-right” 14 incompatible development and land use in APZ-1 including
60 acres of undeveloped property zoned for by-right development of 460 new
residential dwellings, plus 410 residential lots zoned by-right for duplex use but
currently developed with only single family residences. The APZ-1 Ordinance
effectively reinstated by-right protection for all other developed residential
property (except duplex opportunities) thus allowing approximately 3,000 15
incompatible use dwellings to remain in APZ-1.

According to the Virginia Compliance Demonstration Report, the justification for
excluding existing structures and uses within APZ-1 from the APZ-1 Ordinance
was the use of the phrase “enact and enforce legislation to prevent further
encroachment of NAS Oceana.” In addition, the Virginia Compliance
Demonstration Report stated that “any interpretation of the specific requirements
of the BRAC law must give effect to this prefatory language.” Even though the
introductory language to the Commission recommendations made reference to
further encroachment, the Commission Finding stated, “the intent of the
Commission is to ensure that the State of Virginia and the municipal governments
of Virginia Beach and Chesapeake take immediate and positive steps to halt the
encroaching developments that are pending before them now and in the future, and
also to roll back the encroachment that has already occurred in the Accident
Potential Zones (APZ) around NAS Oceana and NALF Fentress, particularly in
the APZ-1 areas.” In addition, the specific BRAC criterion requires the enactment
of state and local legislation and ordinances to “establish a program to condemn
14
      “By-right” refers to development that the City Zoning Ordinance permits without the need for specific
     approval by the City Council. By-right uses are referred to in the City Zoning Ordinance as “principal
     uses” that require only ministerial approvals rather then discretionary development decisions.
15
     The approximately 3,000 is based on 3,400 dwelling units less approximately 410 units that lost the
     by-right capability to expand to duplex properties under the APZ-1 Ordinance.

                                                                                                Encl (2)
                                                                                                p. 7 of 13
and purchase all (emphasis added) the incompatible use property located within
the APZ-1 areas for NAS Oceana, as depicted in the 1999 AICUZ pamphlet.” The
1999 AICUZ pamphlet identifies the incompatible use property to include
residential dwellings and does not distinguish between existing or future.

The Virginia Compliance Demonstration Report further stated that the term
“incompatible use” may be interpreted in a manner consistent with the Navy’s
practice under Chief of Naval Operations Instruction (OPNAVINST) 11010.36B,
“Air Installations Compatible Use Zones Program,” December 19, 2002, as well as
the Navy’s position in connection with the Hampton Roads JLUS. Specifically,
Virginia Beach considered that OPNAVINST 11010.36B provided that,
recommendations regarding compatible land use within each accident potential
zone may vary according to local conditions, and local planning authorities may
desire to implement different criteria than those included to reflect specific local
conditions.

However, the 1999 AICUZ pamphlet, rather than OPNAVINST 11010.36B, was
clearly and specifically called out in the BRAC criterion, and the table included in
the 1999 AICUZ pamphlet (see above) defines what is considered incompatible
uses. Further, although published by the Navy, the 1999 AICUZ pamphlet
repeatedly refers to DoD as the originator of the APZ compatibilities depicted in
the pamphlet and makes no reference to Navy AICUZ guidelines. Therefore, the
1999 AICUZ pamphlet table is the source for identification of what property uses
are considered incompatible in APZ-1 under the BRAC criterion.

The JLUS, officially published by the Hampton Roads Planning District
Commission, provided recommendations regarding land development policy and
implementation responding to the Navy’s air mission in the region. 16 Although
the Navy provided assistance; the document was not a Navy publication.
However, regardless of Navy’s position in connection with the study, the
1999 AICUZ pamphlet was the reference designated by the BRAC criterion in
determining what should be considered incompatible use property.

According to the 1999 AICUZ pamphlet, incompatible uses include “single-family
residential; all other residential; assembly areas; and schools, hospitals,
sanitariums, and nursing homes.” Although Virginia Beach ordinances described
property that included these uses as pre-existing, non-conforming under city
zoning terminology, the 1999 AICUZ pamphlet considered these uses
incompatible. As such, references to OPNAVINST 11010.36B or past Navy
practices regarding existing incompatible uses around NAS Oceana sidestep the

16
     Sponsors of JLUS were the Cities of Virginia Beach, Chesapeake, and Norfolk, the Hampton Roads
     Planning District Commission, and the Department of Defense Office of Economic Adjustment.

                                                                                         Encl (2)
                                                                                         p. 8 of 13
unambiguous language of the BRAC criterion to include “all the incompatible use
property” in an APZ-1 program. Should an accident occur with a Navy aircraft
within APZ-1 at any time in the future, whether a property is considered non-
conforming pre-existing or incompatible, the potential for property damage and
injury to life still exists.

        Virginia Beach Property Acquisitions Limited to Voluntary Owner
Requests. According to the APZ-1/Clear Zone Use and Acquisition Plan, for
those properties considered by Virginia Beach as incompatible uses, acquisition by
eminent domain would be limited to those properties where the owner voluntarily
initiated an offer for the city to purchase the property. Specifically, the plan stated
that, “beginning January 1, 2006, property owners desiring to sell their property
consistent with the provisions of the APZ-1/Clear Zone Use and Acquisition Plan
shall notify the City Manager by letter.” The Virginia Compliance Demonstration
Report, projected voluntary participation at 23 percent of the 1,155 acres
designated as eligible for acquisition.17 As such, due to the voluntary nature of the
APZ-1/Clear Zone Use and Acquisition Plan, Virginia Beach has not provided any
recourse to purchase property from those owners who do not wish to participate
voluntarily.

        Use of Condemnation. The BRAC criterion requires that Virginia Beach
enact ordinances to establish a program to condemn and purchase all incompatible
use property located within the APZ-1 areas for NAS Oceana, as depicted in the
1999 AICUZ pamphlet. The APZ-1/Clear Zone Use and Acquisition Plan stated
that eminent domain would be used only to acquire undeveloped property zoned
for residential use, and then only if the property has no other reasonable use and
efforts to voluntarily purchase the property have failed. In such cases, eminent
domain would be used to compensate the owner. The APZ-1/Clear Zone Use and
Acquisition Plan further states that eminent domain would not be used for
developed residential property or either developed or undeveloped non-residential
property.

According to the Virginia Compliance Demonstration Report, a property
condemnation program does not require condemnation of fee interests. Rather, it
is sufficient to condemn easement interests that preclude new incompatible uses.
Thus, the Virginia Compliance Demonstration Report considers that
condemnation was accomplished by the APZ-1 Ordinance, because the ordinance
“was the equivalent of condemning and purchasing restrictive easements over all
privately owned property in APZ-1.”



17
     We did not validate the Commonwealth data or the projection.

                                                                          Encl (2)
                                                                          p. 9 of 13
The APZ-1 Ordinance was a zoning change to make future development
compliant with provisions patterned after OPNAVINST 11010.36B. Although a
taking of property through eminent domain could be accomplished using a
restrictive easement, the APZ-1 Ordinance made no provision for condemnation,
which is a BRAC requirement. Even if the APZ-1 Ordinance is considered the
equivalent to condemning and purchasing privately owned property in APZ-1, the
ordinance does not cover “all the incompatible use property” because it is
restricted to 60 acres of undeveloped residentially zoned property the city valued
at $15.6 million. Moreover, the APZ-1 Ordinance only provided partial
restrictions on property rights and did not halt all the incompatible uses because
the ordinance exempted existing structures and uses from its provisions. By doing
so, the ordinance allowed 3,000 dwellings to remain as residential property and
potentially be replaced as long as the land use density did not increase. The
BRAC criterion did not require re-zoning the vicinity of NAS Oceana, but rather
to condemn and purchase all the incompatible use property.

The BRAC criterion is very clear in requiring that Virginia Beach establish a
program to condemn and purchase all the incompatible use property as defined in
the 1999 AICUZ pamphlet. Virginia Beach actions do not address all the
incompatible use property within APZ-1 since they permit approximately
3,000 existing dwelling units to remain within the APZ-1.

Funding Uses. The BRAC criterion requires the Commonwealth and the City of
Virginia Beach to enact state and local legislation and ordinances to establish a
program, and to fund and expend no less than $15 million annually in furtherance
of the program.

Both the Commonwealth and the City of Virginia Beach satisfied the funding
portion of the BRAC criterion by appropriating and designating funds of
$15 million annually in furtherance of the program. Specifically, H.B. 975 and
S.B. 565 stated,
      …the governing body of any locality in which a United States Navy Master Jet
      Base is located shall adopt ordinances to establish a program to purchase or
      condemn pursuant to § 2, incompatible use property or otherwise seek to convert
      such property to an appropriate compatible use and to prohibit new uses or
      development deemed incompatible with air operations in the Accident Potential
      Zone 1 (APZ-1) and Clear Zone areas, as depicted in the Navy’s 1999 AICUZ
      Pamphlet, and fund and expend no less than $15 million annually in state and
      local funds in furtherance of the program, to the extent that properties or
      development rights are reasonably available for acquisition or their use
      reasonably may be converted. Further, such funding and expenditures shall be
      subject to annual appropriations from the state and locality, and shall continue
      until such time as all reasonably available properties or development rights have
      been acquired in the designated areas.



                                                                                          Encl (2)
                                                                                          p. 10 of 13
The City of Virginia Beach established funding through the following means:

   • The APZ-1/Clear Zone Use and Acquisition Plan directed the City
     Manager, each fiscal year, to include in the city’s annual budget, funds for
     the purpose of acquiring properties within APZ-1 and Clear Zones
     designated for acquisition in the amount of $15 million, or such greater
     amount as circumstances may warrant.

   • Virginia Beach Ordinance 2928B established Capital Improvement
     Project #9-060, “Conformity and Acquisition Fund – APZ-1 and
     Interfacility Traffic Areas,” for the purpose of purchasing land or interests
     in land and facilitating the conversion of nonconforming property uses to
     conforming uses in the APZ-1 areas surrounding NAS Oceana, and for the
     purpose of purchasing land or interests in land or property in the
     Interfacility Traffic Area.

   • Virginia Beach Ordinance No. 2934G, stated that the Virginia Beach City
     Council appropriated $15 million, in advance of approval of the fiscal year
     2006-07 budget, to be transferred into Capital Project #9-060, on May 9,
     2006.

BRAC Criterion (3) The BRAC criterion language is as follows:
      …codify the 2005        final   Hampton    Roads   Joint   Land   Use    Study
      recommendations.

Description of Findings and Results for BRAC Criterion (3)

The Commonwealth of Virginia action satisfied BRAC criterion (3).

The Commonwealth enacted H.B. 975 and S.B. 565 directing,
      …the governing body of any locality in which a United States Navy Master Jet
      Base, or an auxiliary landing field used in connection with flight operations
      arising from such Master Jet Base, is located, to adopt such ordinances or take
      such other actions as may be recommended in any Joint Land Use Study that has
      been officially approved by the governing body of the locality.

In addition, prior to the Commonwealth legislation, on May 10, 2005, the Virginia
Beach City Council adopted Resolution No. 03123 accepting the final Hampton
Roads JLUS Report. On May 24, 2005, the Chesapeake City Council adopted
Resolution No. 05-R-027 adopting the Hampton Roads JLUS.




                                                                                        Encl (2)
                                                                                        p. 11 of 13
BRAC Criterion (4) The BRAC criterion language is as follows:
      …legislate requirements for the cities of Virginia Beach and Chesapeake to
      evaluate undeveloped properties in noise zones 70 dB DNL or greater for
      rezoning classification that would not allow uses incompatible under AICUZ
      guidelines.

Description of Findings and Results for BRAC Criterion (4)

The Commonwealth of Virginia actions satisfied BRAC criterion (4).

The Commonwealth enacted H.B. 975 and S.B. 565 directing,
      …the governing body of any locality in which a United States Navy Master Jet
      Base, or an auxiliary landing field used in connection with flight operations
      arising from such Master Jet Base, is located shall undertake an evaluation of
      undeveloped properties located in noise zones 70 dB DNL or greater to
      determine the suitability of such properties for rezoning classifications that
      would prohibit uses incompatible under AICUZ guidelines.

BRAC Criterion (5) The BRAC criterion language is as follows:
      …establish programs for purchase of development rights of the inter-facility
      traffic area between NAS Oceana and NALF Fentress.

Description of Findings and Results for BRAC Criterion (5)

The Commonwealth of Virginia actions and actions by the municipal governments
of Virginia Beach and Chesapeake satisfied BRAC criterion (5).

The Commonwealth enacted H.B. 975 and S.B. 565 directing,
      …the governing body of any locality in which a United States Navy Master Jet
      Base, or an auxiliary landing field used in connection with flight operations
      arising from such Master Jet Base, is located, to establish programs to purchase
      land or development rights in the corridor of land underneath the flight path
      between the Master Jet Base and the auxiliary landing field known as an
      interfacility traffic area.

On December 20, 2005, the Virginia Beach City Council adopted the Interfacility
Traffic Area Property Acquisition Plan, dated December 15, 2005. On
February 28, 2006, the Chesapeake City Council adopted the Interfacility Traffic
Area Property Acquisition Plan, dated January 23, 2006, and approved it for
immediate implementation. Both plans provided for a program for the cities to
buy either the development rights or fee simple title of the property, with the
preferred acquisition being the fee simple title.



                                                                                         Encl (2)
                                                                                         p. 12 of 13
BRAC Criterion (6) The BRAC criterion language is as follows:
      …enact legislation creating the Oceana-Fentress Advisory Council.

Description of Findings and Results for BRAC Criterion (6)

The Commonwealth of Virginia actions satisfied BRAC criterion (6).

The Commonwealth enacted H.B. 975 and S.B. 565, which created the Oceana-
Fentress Advisory Council. The advisory council, a sub-unit of the Virginia
Military Advisory Council, would include representation from the City Councils
of Virginia Beach and Chesapeake, the Virginia General Assembly, and the U.S.
Navy. The advisory council would identify, study, and provide advice and
comments to the Virginia Military Advisory Council on issues of mutual concern
to the Commonwealth and the Navy concerning NAS Oceana and NALF Fentress.




                                                                          Encl (2)
                                                                          p. 13 of 13
Enclosure 3
NAS Oceana and NALF Fentress




Source: Hampton Roads Joint Land Use Study, April 2005
                                                         Encl (3)
                                                         p. 1 of 1
